IN THE SUPREME COURT OF THE UNITED STATES
FOR THE DISTRICT OF MICHIGAN

Savon C. Davis,
petitioner,
Lower Court No. 13-303-FC
Court of Appeals No. 370773
Michigan Supreme Court No. 153924
Habeas Corpus Mo. 2 :13-cv-10391
LI.S. C.O.A. No. 19-1540

V.

UNITED STATE5 OF AMERICAN
Respondent...

PROOF OF SERVICE

I, Dovon Davis, do swear or declare that on this dat

, as required by

Supreme Court Rule 29, I have served the Enclosed Motion For Leave io Proceed in Forma
Pauperis;

Petition For Writ of Certiorari and Appendix on each party to the above

proceeding on that party's counsel, and on every other person required to be served, by
depositing an envelope, containing the above documents, with an Authorized Legal Mail
Disbursement
them

to be processed, in the United States mail properly addressed to each of

prepared as follows:
Mr .Linus Richard Banghart-Linn
Office of the Attorney General of Michigan
P.0. Box 30217
Lansing, Michigan 48116

Dovon Davis# 591753
Pro Se REPRESENTATION
Chippewa Correctional Facility
4269 West M-BO
Kincheloe, Michigan 497B4

HO

